<html>
<title> - THE TUAREG REVOLT AND THE MALI COUP</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                  THE TUAREG REVOLT AND THE MALI COUP

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 29, 2012

                               __________

                           Serial No. 112-173

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-863 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, Florida
JEFF FORTENBERRY, Nebraska           DENNIS CARDOZA, California
MICHAEL T. McCAUL, Texas             BEN CHANDLER, Kentucky
TED POE, Texas                       BRIAN HIGGINS, New York
GUS M. BILIRAKIS, Florida            ALLYSON SCHWARTZ, Pennsylvania
JEAN SCHMIDT, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
BILL JOHNSON, Ohio                   FREDERICA WILSON, Florida
DAVID RIVERA, Florida                KAREN BASS, California
MIKE KELLY, Pennsylvania             WILLIAM KEATING, Massachusetts
TIM GRIFFIN, Arkansas                DAVID CICILLINE, Rhode Island
TOM MARINO, Pennsylvania             
JEFF DUNCAN, South Carolina          
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York          THEODORE E. DEUTCH, Florida
ROBERT TURNER, New York              
                                     






                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Johnnie Carson, Assistant Secretary of State, 
  Bureau of African Affairs, U.S. Department of State............     5
The Honorable Earl Gast, Assistant Administrator, Bureau for 
  Africa, U.S. Agency for International Development..............    16
Mr. Nii Akuetteh, independent Africa analyst (former Georgetown 
  University professor of African affairs).......................    32
Mr. Rudolph Atallah, senior fellow, Michael S. Ansari Center, 
  Atlantic Council...............................................    42
Mr. Dave Peterson, senior director, Africa, National Endowment 
  for Democracy..................................................    57

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Johnnie Carson: Prepared statement.................     8
The Honorable Earl Gast: Prepared statement......................    18
Mr. Nii Akuetteh: Prepared statement.............................    34
Mr. Rudolph Atallah: Prepared statement..........................    45
Mr. Dave Peterson: Prepared statement............................    60

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, and Human Rights: Written statement by 
  Michael Gabaudan, M.D., President, Refugees International......    70
Written response from the Honorable Johnnie Carson to question 
  submitted for the record by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas.............    76
Questions submitted for the record by the Honorable Christopher 
  H. Smith and written responses from:
  The Honorable Johnnie Carson...................................    77
  Mr. Nii Akuetteh...............................................    80
  Mr. Rudolph Atallah............................................    86
  Mr. Dave Peterson..............................................    89

 
                  THE TUAREG REVOLT AND THE MALI COUP

                              ----------                              


                         FRIDAY, JUNE 29, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                  and Human Rights,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Good morning. The hearing will come to order. 
Today's hearing will examine current U.S. policy and U.S. 
policy options in response to the recent military coup in 
Malawi and the larger revolt of the Tuareg people in Northern 
Malawi.
    The Tuaregs have been in conflict with the Central 
Government in Bamako, Mali for many years, but following the 
service of some Tuaregs as mercenaries for the late Muammar 
Ghadafi of Libya, the acquisition of more sophisticated weapons 
from the Libyan conflict and increasing ties to al-Qaeda in the 
Islamic Maghreb, they now pose a danger, not only to Mali, but 
also to Algeria, Niger, Mauritania, Burkina Faso, and perhaps 
even Nigeria.
    Meanwhile, Mali, in recent years, has been a model of 
African democracy, now finds itself struggling to resurrect 
democratic governance and put the military back in its proper 
role as part of the government. The downfall of Mali's 
democracy could have a negative impact on the future of Mali as 
well as the entire Sahel region of Africa.
    Amadou Toumani Toure, popularly known as ATT, led a 
military coup in 1991 that created a transitional government 
and democratic elections in 1992. Mali's growing reputation for 
democratic rule was enhanced in 2002 when President Alpha Oumar 
Konare, having served the two terms permitted under the 
Constitution, stepped down, and ATT, running as an independent 
and leveraging his reputation as Mali's soldier of democracy, 
was elected President.
    Unfortunately, two issues eroded ATT's initial popularity. 
The first was a political system in which there appears to have 
been incentives for corruption. Certainly, there was a growing 
public perception that the system was corrupt. The second was 
popular anger toward the government's handling of the Tuareg 
rebellion in the North. Weeks of protests at the government's 
response to the Northern rebellion dropped ATT's popularity to 
a new low.
    On March 21, 2012, mutinying Malian soldiers displeased 
with the management of the Tuareg rebellion, attacked several 
locations in the capital of Bamako, including the Presidential 
Palace, state television, and military barracks. The soldiers 
said they had formed the National Committee for the Restoration 
of Democracy and State, and declared the following day that 
they had overthrown the government. This forced ATT into 
hiding.
    As a consequence of the instability following the coup, 
Mali's three largest northern cities, Kidal, Gao, and Timbuktu 
were overrun by the rebels on 3 consecutive days. On April 5, 
2012, after the capture of the town of Duwenza, the National 
Movement for Liberation of Azawad, or the MNLA, said that it 
had accomplished its goals and called off its offensive.
    The following day, it proclaimed independence of their 
homeland, Azawad, from Mali. The Islamic Group, Ansar al-Dine, 
was later part of the rebellion, claiming control of swaths of 
territory, although this control was disputed by the MNLA. On 
May 26, 2012, the MNLA and Ansar al-Dine announced that they 
had signed a pact to join their respective territories and form 
an Islamic state.
    Will this alliance last? Perhaps not. The MNLA is an 
offshoot of a previous nationalist political movement and is 
dedicated to a separate homeland for the Tuaregs and Moors who 
comprise its membership. Ansar al-Dine, whose name means 
``Defenders of Faith,'' is an Islamic group believed to have 
links with al-Qaeda in the Islamic Maghreb and other Islamic 
groups.
    Ansar al-Dine is dedicated to establishing Shariah law, not 
only in Azawad, but also in the rest of Mali as well. Disputes 
between the two groups already have resulted in gunfire 
involving the supposed allies. As we hold this hearing, the 
Economic Community of West African States, the African Union, 
and the United Nations are discussing the viability of a 
peacekeeping mission in Mali.
    Such a mission would look to secure and protect civilian 
institutions and help restructure the Mali military. However, 
it will also focus on the situation in the North, which will be 
a tremendously sensitive matter, especially if the mission of 
the peacekeeping force is to retake territory from the MNLA and 
Ansar al-Dine. To add further to the problematic nature of the 
response of the Mali coup, and the Tuareg revolt, there is the 
matter of providing humanitarian aid to the 210,000 Malian 
refugees in Niger, Mauritania, Burkina Faso, and Algeria.
    Another 167,000 Malians are internally displaced. Many of 
them are in remote areas and are difficult to reach with food 
and medical supplies. There is the question of how effective 
our aid efforts will be in such a challenging situation. But no 
matter how difficult this matter is to address, there are too 
many people affected for the United States to fail to provide 
leadership in the effort to solve this political, and social, 
and humanitarian crisis.
    To discuss this effort, to devise a satisfactory solution 
to a problematic situation, we have a very distinguished panel 
of leaders, and in a moment, we will introduce them, but it is 
my privilege and honor to yield such time as she may consume to 
the ranking member, Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair. I especially want to thank 
you for working with me today to hold today's hearing on the 
very serious developments that are unfolding in Mali and the 
Sahel. While we have held recent hearings on the economic 
growth and investment opportunities that exist across the 
continent as a result of AGOA, we turn our focus today to a 
country and region in the midst of a crisis and one that 
requires our focused attention.
    Thank you as well for your continued leadership and I look 
forward to working with you on this and other issues as we 
touch upon, not only the continent's challenges, but the very 
real opportunities that showcase Africa's rise and continued 
emergence on the global stage.
    Prior to the current crisis in Mali, many considered the 
country a bright star in West Africa. Mali had been holding 
free and fair elections since 1991 and Foreign Affairs extolled 
the Malian Government as a ``reassuring symbol of Africa's 
commitment to democracy.'' The United Nations High Commissioner 
for Human Rights has also made positive remarks on Mali's 
democracy, saying that Mali had a ``good record of democratic 
elections over the last two decades.'' The U.S. Government 
developed a strong and positive relationship with Bamako, and 
our teams worked diligently on a range of efforts from 
development to regional security. This, unfortunately, all came 
to an abrupt and unfortunate halt in the brutal and bloody 
events in late March.
    Before the coup, Mali was an important partner in the 
Trans-Sahara Counter-Terrorism Partnership. The Partnership was 
established to strengthen regional government capacity to 
address the growing threats posed by terrorists and extremist 
groups, particularly those in the northern part of Mali, 
including, and importantly, AQIM.
    Our bilateral efforts through USAID were significant, 
focusing on good governance, agricultural development, health, 
education, and security assistance. The Millenium Challenge 
Corporation also had significant investments. The MCC compact 
was intended to serve as a catalyst for sustainable economic 
growth and poverty reduction through key infrastructure 
developments, including the Bamako-Senou International Airport, 
a gateway for regional and international trade, and the Niger 
River for irrigated agriculture.
    These and other programs have been terminated due to legal 
restrictions placed on countries that are experiencing, or have 
undergone, non-peaceful or non-democratic transitions, and I 
look forward to your testimony to see the impact of that 
interruption in support. This has resulted, of course, in the 
immediate halting of approximately $160 million in State 
Department and USAID-administered aid, a gap that adds negative 
pressure to an already dire situation.
    Since the March coup, I have followed very closely what is 
an expanding and complex set of events that has involved 
numerous players and a constellation of actors and interests. 
If there is to be sustained peace and stability in Bamako, 
Northern Mali, and the broader region, I believe concerted 
diplomatic efforts must be brought to bear in response to this 
evolving crisis. All efforts must be made to get Mali back on 
track toward a democratically-elected government. This must 
include setting a realistic date for elections.
    I urge our colleagues at the State Department and our 
international partners to redouble efforts toward a mediated 
solution, while working closely to preserve the unity and 
territorial integrity of Mali. I believe Secretary Clinton and 
Ambassador Rice have been unequivocal on this point.
    I also want to express deep concern for the conflict in the 
North, including what appear to be the advancing interests of 
AQIM as well as the emboldened Tuareg movement.
    With the fall of Tripoli, the flight of hundreds of 
thousands from Libya, and the coup in Bamako, a political and 
military vacuum has created conditions that have taken a deadly 
turn. This includes the imposition of harsh Sharia law on local 
populations and I hope that our panelists will address that to 
the extent that that is happening and what is going on.
    CRS reports that ``increasingly brazen presence of AQIM 
commanders in Northern Mali, along with unconfirmed reports of 
fighters from Nigeria and Pakistan, have raised acute regional 
and Western concerns that Mali could become a launching pad for 
transnational terrorist attacks.'' Some of these groups appear 
ready to cut ties with AQIM and some of the more extreme 
elements. We must work with our international partners toward a 
solution that sees the disassociation of these ties and the 
start of negotiations.
    ECOWAS, the U.N., and others are leading efforts toward 
addressing these very serious concerns extolled by various 
factions. In closing, let me briefly highlight my serious 
concern for the humanitarian crisis that is compounding a grim 
and difficult reality throughout the Sahel. Refugees 
International, Save the Children, Human Rights Watch reports 
claim that armed conflict in Mali has compounded an already 
desperate humanitarian situation in the Sahel, where over a 
175,000 children are suffering from severe acute malnutrition.
    To date, the political and humanitarian crisis has led 
325,000 people to flee their homes and a 180,000 to cross 
borders to seek safety and basic access to food and water. 
Fifty-nine percent of these refugees are children. Various 
agencies have quickly scaled up its operations to address this 
crisis, but additional resources are critical for an effective 
and prompt delivery of aid, and hopefully also, you will 
address that in terms of the interruption and the potential 
impact on this.
    I understand it is not supposed to be interrupted in this 
area, but maybe you could address that. Displaced persons in 
Northern Mali are particularly at risk as rebel groups have 
prevented aid groups from operating in the region. Protection 
and security concerns are also looming as frequent banditry, 
kidnappings, and attacks on displaced populations and their 
host communities threaten to undermine an already fragile 
coexistence.
    Humanitarian assistance must be accompanied with long-term 
solutions that address the varied and complex threats that food 
insecurity, climate change, and regional instability presents 
in the Sahel region. Thank you and I look forward to today's 
witness panels.
    Mr. Smith. Ms. Bass, thank you very much. I would like to 
now introduce our very distinguished panel, beginning first 
with Johnnie Carson. Ambassador Johnnie Carson has been a 
frequent witness before this subcommittee. He currently serves 
as Assistant Secretary of State in the Bureau of African 
Affairs, a position he has held since May 2009. Ambassador 
Carson has a long and distinguished career in public service, 
including 37 years in the foreign service, including time as 
Ambassador to Kenya, Uganda, and Zimbabwe.
    Ambassador Carson has also served as the staff director of 
this subcommittee and as a Peace Corps volunteer in Tanzania. 
Ambassador Carson is also the recipient of numerous awards for 
his service from the State Department.
    We will then hear from Earl Gast, who is making his first 
appearance before our subcommittee since taking over his 
current post. He is USAID's Assistant Administrator for Africa 
and has a 21-year career working with USAID and leading 
development programming, especially in post-conflict in 
transitioning societies. Prior to his position, Mr. Gast served 
in Afghanistan, Columbia, Eastern Europe, and Rome. Mr. Gast 
was also one of the first USAID employees stationed in Iraq.
    He played an equally important role in developing the post-
crisis strategy for Kosovo, monitoring all mission operations, 
most prominently, he received the agency award for heroism and 
distinguished unit award. Thank you for your service and, 
Ambassador Carson, if you would proceed.

STATEMENT OF THE HONORABLE JOHNNIE CARSON, ASSISTANT SECRETARY 
 OF STATE, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Carson. Mr. Chairman, thank you very, very much 
for the kind introduction and thank you also for holding this 
very important hearing. I also want to acknowledge the presence 
of the ranking member on the subcommittee, Congresswoman Bass, 
and also Congressman Turner. We appreciate your support, and 
assistance, and your interest in Africa.
    Mali today is grappling with four overlapping crises that 
have compromised its stability as well as the security of 
neighboring countries in the Sahel. Mali is struggling to 
restore democracy and constitutional rule, to bring an end to 
the political rebellion of the Tuareg people, to actively 
combat the radical Islamic threat posed by AQIM and Ansar al-
Dine, and to respond effectively to an expanding humanitarian 
crisis in the northern part of the country.
    A military coup d'etat on March 21 broke Mali's 20-year 
tradition of democracy. In the aftermath, Tuareg groups that 
were leading a rebellion in the North of the country since 
January, used the political crisis to effectively partition the 
country in two. The terrorism threat with which Mali had been 
struggling prior to the outbreak of the rebellion has grown as 
al-Qaeda in the Islamic Maghreb, known as AQIM, and other 
extremist groups have taken advantage of the power vacuum that 
exists in the northern part of Mali.
    Finally, the fighting and resulting instability has 
exacerbated the situation of food and security in Mali and the 
Sahel, and more than 370,000 Malians have been displaced. These 
problems challenge not only the countries in the region, but 
also run counter to U.S. principles of good governance, 
civilian control over the military, and respect for human 
rights. In addition, the vast territory of Northern Mali 
provides a haven for AQIM and other extremist groups that may 
prove increasingly effective at targeting Western interests.
    These challenges are interrelated, yet the urgency of the 
situation demands that we address them simultaneously. Our 
engagement on Mali is based on two pillars of the 
administration's African policy--strengthening democratic 
institutions and advancing peace and security. We also support 
the principle of regional ownership in the belief that 
sustainable solutions can only be derived from communication 
and cooperation with those most directly affected by the 
problem.
    On the political crisis, we are maintaining pressure on the 
coup leaders and the military to respect civilian leadership, 
to withdraw completely from politics, and to permit the full 
restoration of a democratically-elected government. At the same 
time, we are supporting the interim government in holding 
Presidential elections before the end of the interim 
government's mandate in May 2013, as no lasting solution to the 
problems in Northern Mali will be possible without a legitimate 
interlocutor in Bamako.
    We believe the Tuareg rebellion is largely a political 
problem that requires addressing the legitimate and 
longstanding grievances of the Tuareg groups in Northern Mali. 
We support regional and international efforts to negotiate a 
resolution with these groups who have expressed a willingness 
to enter into dialog with the Malian Government. We reaffirm 
our commitment to the unity and the territorial integrity of 
Mali and will provide unequivocal support for a negotiated 
settlement along those principles.
    The key to successfully containing the insecurity emanating 
from Mali will be to immediately strengthen regional partners, 
such as Mauritania, Niger, and Algeria, and in the longer term, 
to work closely on a common international political approach to 
legitimize, and then to strengthen the political and security 
forces inside of Mali itself.
    The humanitarian crisis will require a sustained and 
coordinated response from the international community. We have 
provided more than $315 million in humanitarian and food 
assistance to those displaced by the conflict in the North and 
those affected by the region's food crisis. We have provided 
$13.5 million in support to the Office of the United Nations 
High Commissioner for Refugees, the International Committee of 
the Red Cross, and other U.N. agencies to address the needs of 
Malian refugees.
    We are urging host countries to maintain their hospitality 
toward Malian refugees and to maintain the principle of first 
asylum. While the United States Government has made positive 
strides in working with regional neighbors to resolve this 
conflict, the ongoing and overlapping conflicts outlined above 
are far from being resolved. If Mali is going to effectively 
counter the Tuareg rebellion, the terrorist threats in the 
North, and return to a democratic example in the region, it 
will require sustained and dedicated efforts from the United 
States Government as well as those in the international 
community.
    Specifically, we will need to provide assistance consistent 
with U.S. law to increase economic and development assistance, 
and provide economic opportunities to disaffected young 
populations across Northern Mali. We will need to continue to 
build the capacity of Mali's neighbors to control and protect 
their borders. Finally, we will need to help build resilience 
in Mali's democratic institutions so that they are better able 
to represent the Malian people and to withstand the kinds of 
pressures that they have come under in the recent past.
    Mr. Chairman, thank you for the opportunity to appear 
before you this morning. This is a summary of my longer 
statement, which you and the other committee members have.
    Mr. Smith. And without objection, it will be made a part of 
the record.
    [The prepared statement of Ambassador Carson follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. I have to announce there are two votes on the 
floor right now. We will take a very short recess and then come 
back and hear Mr. Gast. Mr. Ambassador, thank you for your 
testimony.
    Ambassador Carson. Thank you.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting. And, 
Mr. Gast, again, I apologize for the delay, but the floor is 
yours.

STATEMENT OF THE HONORABLE EARL GAST, ASSISTANT ADMINISTRATOR, 
  BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Gast. Chairman Smith, Ranking Member Bass, and 
Congressman Turner, thank you for inviting me to speak with you 
today. We are deeply concerned about the ongoing situation in 
Mali, the immediate threat to human lives and safety, prospects 
for a peaceful and democratic society, and future opportunities 
for economic prosperity. I would like to provide an update on 
the current situation and how it has affected our development 
program as well as outline the key factors that are needed for 
development to progress.
    Mali is facing a complex emergency that consists of a 
political crisis, a major drought, and threats to internal and 
regional security. These interrelated crises call for a careful 
and comprehensive response. It is important to emphasize that 
the situation in Mali is fluid and dynamic. Though we are 
closely monitoring the situation and consulting with other 
donors and key stakeholders, it is extremely difficult to get a 
complete picture of the situation in the North.
    As of early-June, 4.6 million persons throughout Mali are 
facing food insecurity. It is estimated that more than 159,000 
persons are displaced within Mali and an additional 182,000 
have fled to neighboring Niger, Mauritania, and Burkina Faso. 
In the North, violence and division are exacerbating the food 
crisis and access to medicine and health services is 
practically non-existent. Government revenues are one-quarter 
the level they were just 1 year ago, and accordingly, 
government provision of basic social services has fallen 
sharply throughout the country.
    Though USAID has made significant contributions to Malian 
development through its long engagement in the country, and the 
hard work and diligence of the Malian people, recent events 
stand to reverse these gains. Prior to the coup, USAID's broad 
development portfolio included activities to strengthen 
democratic institutions, grow the agricultural sector, support 
literacy and education, improve community health and health 
systems, and manage instability and threats in the North.
    And Mali had made significant gains over the past decade. 
Annual economic growth had averaged more than 5 percent and 
poverty had been reduced from 56 percent in 2001 to 44 percent 
in 2010. In the same time period, child mortality had been cut 
in half, Mali liberalized its cereals market, opened up trade 
routes, and improved conditions for doing business. 
Agricultural production increased, particularly in areas where 
USAID has been active.
    On April 10, 2012, the United States Government formally 
terminated assistance to the Government of Mali, consistent 
with coup restrictions in the appropriations act. The 
activities that were terminated included public school 
construction as well as capacity building for the Government of 
Mali. However, USAID continues to address the emergency health, 
nutrition, and food needs of the Malian people. To date, in 
Fiscal Year 2012, we have provided more than $50 million to 
address humanitarian needs within Mali.
    Other lifesaving health and food security programs are 
under consideration for resumption as part of a case-by-case 
policy and legal review. In evaluating which programs can move 
forward in light of the applicable legal restrictions, we 
consider whether they provide essential lifesaving assistance, 
whether they support children, whether they strengthen food 
security, or advance U.S. foreign policy. We also consider 
operational issues, including efficient oversight and 
management.
    This case-by-case analysis ensures that there is careful 
consideration of the context, including how to protect previous 
U.S. Government investments. Before the coup, USAID was the 
largest donor supporting Mali's planned April 2012 elections, 
with activities that provided training of poll workers, 
political party strengthening, elections monitoring, and voter 
education. If the electoral support activities resume, 
assistance would help support a foundation for free and fair 
elections in Mali and a peaceful political exit from the 
current situation.
    The only USAID-supported economic growth activities that 
are continuing in Mali are those that address food security. 
Agricultural assistance has focused on supporting farmers and 
herders to increase production in the current planting season. 
Particularly, in light of dire food needs, this assistance is 
critical to improve access to inputs, increase production, and 
increase resilience to drought. Some health sector activities 
have been approved to continue in order to provide lifesaving 
interventions.
    These programs include preventing maternal and child 
mortality, identifying and treating malaria, and other critical 
community-based health interventions. The restoration of 
democracy with a return to a development focus in Mali is 
important to the region and to Africa as a whole. Lives and 
livelihoods are at great risk without the prompt resolution of 
the current political, security, and food crises.
    Under the right conditions, Mali has the potential to be a 
major food producer for the region as well as advanced trade 
and economic growth. Its history of partnership with the United 
States to improve health, education, and living conditions is 
noteworthy. As the situation evolves, we remain vigilant to 
changes in the operating environment and the risks and 
opportunities involved. While USAID can provide immediate 
relief to the people, help set the foundations for democratic 
elections, and provide basic services in the interim, Mali's 
future development must be led by the Malian people.
    This can only be achieved through a duly elected and 
participatory government along with peace and stability. Thank 
you for the opportunity to appear before you today and I 
welcome any questions you might have.
    Mr. Smith. Mr. Gast, thank you so very much for that 
testimony. And without objection, your full statement, and any 
other materials you'd like to have added, will be made a part 
of the record.
    [The prepared statement of Mr. Gast follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Ambassador Carson, if I could just ask you with 
regard to the peacekeeping mission, the estimates are that some 
3000 peacekeepers would be needed. You did speak about it to 
some extent in your testimony. If you could just elaborate on 
whether ECOWAS can provide a sufficient number of troops. Where 
will the money come from? How much do we expect that we might 
bear, or provide I should say, to that effort? And when it 
comes to the parameters of the mission, could give us some 
details as to what U.S. policy and U.S. hopes and 
recommendations would be for them, including the rules of 
engagement for such a peacekeeping mission?
    Ambassador Carson. Mr. Chairman, thank you very much for 
that question. We, ourselves, are waiting to hear from ECOWAS 
about precisely what they plan to do, and how they plan to do 
it, and how they intend to fund it. We have maintained an open 
mind about what they are going to do, although we do recognize 
that there are different scenarios of complexity that could be 
undertaken. The reality is that ECOWAS should not undertake a 
mission that is not properly planned, that is not adequately 
financed, and one that does not adequately consider the long 
term.
    Generally speaking, I think that it is important for ECOWAS 
to think first about ensuring the safety and the integrity of 
those officials in Bamako who are responsible for leading a 
transition back to a full constitutional and democratically-
elected government. And I think that would be a much more 
definable, limited, and supportable operation rather than 
looking at the complexities of immediately trying to do 
anything in the North.
    One has to take into account that the government in the 
South has no effective military now. It lost over half of its 
equipment when it left the northern part of the country. And so 
any effort to look at retaking the North would be a significant 
undertaking for ECOWAS and for the states there. It must be 
thought out carefully, and planned well, and resourced 
appropriately. But I think the focus should be on the South at 
this point.
    Mr. Smith. Can I just ask you about rules of engagement? I 
will never forget on a trip to Darfur, meeting with a Major 
Ajumbo who was very upset with the rules of engagement of that 
deployment, it was early in the deployment, and he had also 
been deployed to Sarajevo during the Yugoslavian crisis, and 
said, for him, it was like deja vu. It was like we were not 
here to protect, we are here to provide the appearance of 
protection. I never forgot those words.
    And given the fact that, the U.N., and even the AU, but 
especially the U.N., has had some major catastrophies, UNPROFOR 
in Yugoslavia, for example, the problems in Rwanda when General 
Dallaire certainly had sent that famous fax that went 
unattended to at the United Nations, and of course, the killing 
fields in Rwanda are infamous forever. And it might have been 
in whole or in part prevented by adequate interventions.
    So the rules of engagement are something that I know you 
and all of us are very concerned about. What would be your 
sense as to where this peacekeeping mission would be when it 
comes to the rules of engagement?
    Ambassador Carson. Mr. Chairman, I am not going to prejudge 
what ECOWAS or what the AU will perhaps ask for as they go 
forward, but I do want to underscore that undertaking a 
military operation in the North of Mali, an area that is the 
size of France, would require a major effort----
    Mr. Smith. Well, I am speaking, Mr. Ambassador, even about 
protection of other areas where hostilities could ensue. 
Remember Srebrenica, the so-called safe haven where, within the 
scope of a week, 8000 Muslims, in that case, were butchered as 
the Dutch peacekeepers handed off protection of those men to 
Mladic.
    Ambassador Carson. Yes. No, understood. Again, I am not 
going to presume even what the rules of engagement would be in 
the South, but I do believe that there is probably, at this 
immediate time, more of a role to be played in the South than 
there is in the North, leaving open the prospect, at sometime, 
that there will need to be an engagement in the North to help 
reconstitute the state and to deal with the terrorist problem 
that AQIM and Ansar al-Dine pose.
    Mr. Smith. You know, I do have about a dozen questions, but 
we do have votes at 12 o'clock and a second panel, so I will 
ask only one to Mr. Gast. You talked about the $50 million, and 
obviously, the situation in terms of protecting our own USAID 
people, you know, has to be a very high priority and a concern. 
How much are we providing for refugees and for IDPs? And what 
is the unmet need, perhaps according to you, or HCR or any 
other entity that has come up with a number?
    Mr. Gast. Thank you for the question and it is difficult to 
target just the IDPs because what we have is a crisis 
throughout the----
    Mr. Smith. And the refugees too.
    Mr. Gast. What we have is a crisis throughout the Sahel and 
I know, Congressman, that you are very concerned about the 
situation. And there are 19 million people who are in need of 
food aid throughout the Sahel. So before the coup had taken 
place, and before the security conditions had worsened, and 
before we had the refugees, the estimate of those who were food 
insecure in Mali was about 3 million. And now that figure has 
nearly doubled, about 5.5 million persons are food insecure.
    Obviously, the IDPs who have remained in country, and 
roughly a 140,000 are food insecure, and part of that larger 
number. So part of our $50 million response, it is not just for 
the 140,000 who are displaced internally, it is for the larger 
population. PRM is supporting refugees, roughly a 160,000 to a 
180,000, in Niger and Burkina Faso, and the amount of money 
that they have programmed to date is roughly $10 million.
    Mr. Smith. Thank you. Ms. Bass?
    Ms. Bass. Thank you. Once again, I want to thank our two 
representatives here for your testimony today and as I 
mentioned to you, Mr. Gast, it was great to see you over here 
and I appreciate you hosting us when we were in Uganda. It was 
just a short time period, but it was very eye-opening; 
appreciate that. And also appreciate the time the Ambassador 
took the other day in giving me an overall briefing of the 
Africa section.
    I wanted to ask you a few questions about the Tuareg. 
Ambassador, you mentioned that they are primarily a political 
problem and I wanted to know if you could describe a little bit 
more in detail about what you mean. What is the political 
problem and then what might a solution be?
    Ambassador Carson. Thank you very much. The Tuareg are only 
one of many groups that occupy Northern Mali, but they are a 
nomadic group that has felt politically marginalized by a 
government which has been largely dominated by Southerners. 
They have felt that their economic, and social, and political 
needs have not been catered to. Not enough positions in 
government and in the civil service.
    Ms. Bass. Were they restricted from running for office or 
anything?
    Ambassador Carson. No.
    Ms. Bass. No?
    Ambassador Carson. No, they are not, but because they are 
nomadic, issues of education were a part of this. But there has 
also been a feeling that not enough development assistance has 
flowed into the Tuareg regions, not enough money put into 
education, not enough money put into health care, not enough 
money put into roads and to infrastructure, and not enough 
money put into economic development.
    This is a political problem that has existed, not just 
since Mali's independence over the last 10 years, but is a 
problem that has existed going back to the era of French 
Colonialism. The Tuaregs felt disadvantaged, even under the 
French, and they have felt disadvantaged since independence. 
They have frequently rebelled and in 2006/2007, the government 
in Mali and the Tuareg came to an agreement called the Algiers 
Accord, negotiated by the Algerians, to address some of the 
many social, economic, and political marginalization issues of 
the Tuareg.
    The Tuareg felt that this agreement was not honored and 
that led to a resumption of combat and fighting. But the 
reality is, is that, this is a political issue, a feeling of 
marginalization, lack of inclusion, and a lack of economic and 
social services in the northern part of the country.
    Ms. Bass. So if it wasn't dealt with appropriately when 
Mali was doing well, what would you envision, you know, the 
future being? How would, or should, can, it be resolved?
    Ambassador Carson. Absolutely. Very good question. I think 
there need to be more guarantees from the international 
community to support those development projects, which the 
government in Bamako agrees to undertake with respect to the 
Tuareg. If, in fact, there is a political agreement that says 
that there are going to be X number of schools, hospitals, and 
kilometers of road built, X number of wells, I think that the 
international community needs to come forward to serve as one 
of the guarantors, one of the financiers of the projects that 
are undertaken.
    On the political side, I think there needs to be more 
transparency to ensure that more Tuareg citizens, more citizens 
of the North who have Tuareg ethnicity, are included in the 
civil service and are included in government positions. But on 
the economic side, I think there is a way to ensure that money 
is allocated and is appropriately used for the North. And I do 
make a very sharp and clear distinction of the Tuareg issue as 
a political issue.
    Ms. Bass. Right.
    Ambassador Carson. The issue of AQIM and Ansar is a 
terrorist issue. They need to be handled separately. And we 
should not, in the effort to respond to the Tuareg issue, drive 
them into the hands of Ansar al-Dine or into the hands of the 
Islamists.
    Ms. Bass. Well, and it leads me to another question because 
I believe you, or it might have been Mr. Gast, mentioned that 
one of the things that needs to be done is we need to build 
resilience in the institutions, but yet at the same time, we 
are restricted, right? I mean, the aid that you talked about we 
are limited to, I know, is the humanitarian aid, and we are not 
allowed to contribute resources to the very thing that you 
said. So my additional question is, do you think it is too 
restrictive? Is there something that we need to do 
legislatively to provide more flexibility?
    Mr. Gast. So we are authorized to work on food security and 
the big concern.
    Ms. Bass. Right.
    Mr. Gast. The problem that we have is one of access. 
Because it is so dangerous in the North because fighting 
continues, it is very difficult for us to have access.
    Ms. Bass. But I wasn't referring to the humanitarian part 
because I understood that that was okay. It was the part about 
us building institutions, the schools, you know, whatever, that 
we are not allowed to now, right?
    Mr. Gast. So we are not building schools.
    Ms. Bass. Right.
    Mr. Gast. We are not supporting government operations, 
which would include education, at this point. We are working in 
the health sector because that is providing lifesaving support. 
We are working, in addition to humanitarian assistance, food 
security and working with private farmers and associations to 
try and strengthen food security.
    Ambassador Carson. Congresswoman Bass, may I just add to 
that to say that we do have the capacity to use funding to help 
the government move back toward democracy. And if there is a 
roadmap and a timetable for the return to democracy, including 
for support to elections, we have the latitude to work in that 
democratic space. And certainly, after there is a return to a 
civilian and democratic government, then we would be able to do 
more beyond just support of elections and then look at ways to 
put money into strengthening the other democratic institutions, 
the independence of the judiciary, the capacity of the 
legislature, strengthening civil society, and media.
    But we do have the capacity, even today, if there is an 
appropriate roadmap presented that is credible and that we 
believe will lead toward elections, we do have the flexibility 
to jump back in to that small democratic space to begin the 
process.
    Ms. Bass. Okay. Thank you. I wanted to ask you about ECOWAS 
and I wanted to know your opinion if the U.S. should push for 
the formation of an international group on Mali that would 
allow actors from ECOWAS, from SENSAD, the EU, Organization of 
Islamic Conference, to all come together and engage on this? Do 
you think that that would be useful? What role should the 
United States play if it is?
    Ambassador Carson. Congresswoman Bass, again, thank you for 
the question. We believe that an international contact group of 
Friends of Mali, if one wants to use that term, or some kind of 
a grouping that helps to bring together key stakeholders and 
participants in the process of helping Mali return to 
democracy. We believe that ECOWAS needs to continue to play the 
primary role as the leading subregional organization, but 
ECOWAS does not, in fact, include several other very important 
partners; partners who have long borders with Mali, and share 
ethnic groups with Mali, who are not a part of this.
    Two of the most important, of course, are Algeria and 
Mauritania. We also need to ensure that other international 
players who can play a supporting role can be a part of the 
discussions and in that group I include the United States, I 
include France, I include, particularly, the European Union. 
Those organizations and countries that can be instrumental in 
helping to facilitate and guarantee things like I mentioned 
before with respect to being able to help fund, perhaps, 
programs in the northern part of the country to deal with the 
grievances of the Tuareg.
    So there needs to be a place where all of these groups can, 
in fact, come to the table and talk. I think this is something 
that the ECOWAS leadership and the AU, the African Union, 
leadership are working on and thinking about. And of course, 
the other major player in all of this has to be the United 
Nations. So what you are talking about does make sense and is 
something that we are constantly encouraging so that all 
important players and partners are at the table, with ECOWAS 
continuing to be a lead in all of this.
    Ms. Bass. Thank you very much.
    Mr. Smith. Mr. Turner?
    Mr. Turner. Thank you, Mr. Chairman. A question for 
Ambassador Carson. We have had ethnic economic political 
factors here for many years. The one wild card, it seems to me, 
religious. Could you fill us in a bit on the background and 
what are the factors at work here and is this being address or 
should it be?
    Ambassador Carson. Many of the problems of radicalism in 
Northern Mali are a spillover from other countries. The AQIM, 
which is al-Qaeda in the Islamic Maghreb, is comprised, not 
simply of Malians, but its leadership is largely drawn from 
individuals who have come from Algiers, from Mauritania, and 
from Libya, and from other countries in the region.
    We know that a number of AQIM leaders and supporters have 
come down from Algeria, and as Algeria has effectively dealt 
with its Islamic extremists and terrorist problem, many of 
those people have drifted down across the Algerian border into 
Northern Mali, which is a very, very large territory and very, 
very sparsely populated, not traversed by many roads and not 
inhabited by many towns, and so those individuals have come 
into this large space.
    Malians, as a whole, and especially including the Tuareg, 
are moderate Muslims not extremists, but individuals who have 
been open and tolerant toward Christians and others. So AQIM, 
again, is very, very different and its agenda and politics are 
quite different from those of the Tuareg as a whole.
    Mr. Turner. Is their ideology gaining any traction in other 
ethnic groups besides those that are coming down from the 
North?
    Ambassador Carson. I don't think so. I think that both AQIM 
and Ansar al-Dine are really relatively small groups. That 
doesn't mean that they are benign. They are, in fact, dangerous 
and lethal, but they are not representative of the vast 
overwhelming majority of Malians in the North and they 
certainly don't represent the majority view of the way Islam 
should be practiced in Mali.
    Mr. Turner. Thank you. I yield back.
    Mr. Smith. Thank you very much. We are joined by Ms. 
Jackson Lee, not a member of the committee, but we welcome her, 
if you have a question or two.
    Ms. Jackson Lee. Mr. Chairman, thank you very much and I 
recognize your courtesies of both you and Ms. Bass. I 
appreciate being a former member of the committee and 
appreciating the work. Let me say to the two witnesses, and I 
was delayed with business on the floor of the House, but I am 
delighted of your presence here, and I wanted to first, 
Ambassador Carson, wrap questions together that then will 
relate to Mali and the present status.
    My initial question is to assess, basically, the health of 
Africa as it relates to U.S.-African relationships, and are we 
doing what we are supposed to do? And I will follow up now with 
the present situation in Mali, and I certainly appreciate that 
the Administrator Gast would also ask. As I recall, and I may 
not be correct, that the Malian population is somewhat nomadic, 
moving around, and so I am asking in this 2012 atmosphere 
whether or not this new uprising conflict has created 
population displacement, whether or not we are seeing a severe 
impact, a more sever impact, on women and children, and then 
lastly, it's a difficult role for the United States to play.
    If you read the basis of the rebellion it is to suggest 
that the government in place was despotic and unfair. How 
conflicting is our position of supporting the existing 
sovereign government to the issues of the values that we 
promote, which are those of democracy? And I would appreciate, 
I think there are three wrapped in there, and I appreciate your 
answers. Thank you.
    Ambassador Carson. Congresswoman Jackson Lee, thank you 
very much for the questions. I will attempt to take a couple of 
those on and then allow my colleague to address those which 
concern humanitarian and refugee issues, but will also weigh-in 
if required. Your first question was about the health of the 
U.S.-Africa relations. I think that U.S.-Africa relations are 
strong and vibrant, that the United States remains well-
respected and admired across the continent with the exception 
of a couple of rogue states and rogue leaders.
    Consistent polling that we do through large established 
polling organizations as well as the polls that we do through 
the U.S. Embassies and U.S. Government, show that the United 
States is favorably liked by higher levels than almost any 
other nation in the world. And in Africa, our polling is 
consistently more favorable than it is in any other part of the 
world--Latin America, Europe, the Middle East, or South Asia. 
And that polling data is quite significant and we can share it 
with you, but the relationship is healthy.
    Ms. Jackson Lee. I would appreciate that. Thank you.
    Ambassador Carson. The relationship is healthy. I think 
that there is a great appreciation for what we do in the area 
of development assistance. Our overall development assistance 
to Africa amounts to somewhere in the neighborhood of $8.5 
billion to $9 billion. This includes what we do in development 
assistance, humanitarian assistance, and food aid through the 
Millenium Challenge Corporation. And we continue to be the 
single largest provider of development assistance across the 
continent, and ours is open and transparent.
    Equally, we have been very strongly engaged in advancing an 
agenda which has just been redefined by the President and the 
national security staff to do everything that we can to 
continue to promote democracy and good governance across the 
continent. And I would say that, despite the difficulties of a 
Mali, I would say that democracy is on the advance across 
Africa. One can look back over the last 3 years and identify, 
not just one, or two, or a half a dozen, but dozens of 
indications where this is, in fact, the case.
    There have been successful elections in Nigeria, the 
largest country in Africa; the peaceful transition and handover 
of power in places like Senegal, where President Wade stood 
aside after losing; and in Zambia where President Banda stood 
aside to allow President Sata to come in; the movement away 
from military regimes into democracy; Niger, where we saw 2 
years ago, the return to democracy after a sitting President 
attempted to hijack the Constitution, and then was overthrown 
by a military government, and then returned to power, a 
civilian government.
    We also saw within the last 2 years, for the first time in 
its history, democratic elections in Guinea-Conakry, which had 
been under military and authoritarian rule since its 
independence from France in 1960. Across the continent, we see 
a commitment to democracy and we almost take for granted 
elections in places like Botswana, places like Ghana, places 
like Namibia, places like Mozambique and Mauritius, all of 
which have democratic foundations, and which are making great 
progress.
    So the democracy agenda is moving forward. No question that 
there are hiccups out there. They are a problem. But a part of 
the second pillar of the administration's commitment is to do 
everything that we can do to spur economic growth, trade, and 
investment in Africa, recognizing that it is going to be the 
creation of economic opportunities, driven by private sector 
investment, that is going to create the jobs and create the 
factories that are going to grow economies. And we are 
committed in this area as well.
    And I would argue that there is, in fact, a lot happening 
there. One can look at the McKinsey Study Report, one can look 
at reports from Oxford Analytica, the World Bank, which show 
the strong growth of Africa as a market and potential market. 
Everyone has heard that six of the ten fastest growing 
economies in the world are in Africa. The return on private 
investment in the African marketplace is higher than it is in 
any other part of the world. And I could go on and on about 
what is, in fact, happening there.
    What we need to do is to sustain it and to push it forward. 
And we are also engaged in two other areas, and that is to do 
as much as we can to promote peace and stability across the 
continent, and we are engaged in Sudan. We are engaged in 
Somalia, just as we are engaged with the ECOWAS leadership on 
Mali.
    And then finally, the preserve of my colleague here, and 
that is to help to promote opportunity and to support the 
initiatives that the administration has underway in promoting 
greater food security, the green agricultural revolution that 
Africa needs, and also to support global health. I think the 
relationship is healthy.
    I think that, despite what we see as the drumbeat of the 
occasional headline of a distressing situation in one African 
country, we need to reorient our thinking to not focus on the 
one, or two, or three problems that we see in the 55 different 
states across Africa, but to focus on the promise and potential 
that we see in Africa, and recognize that this Africa is a 
continent with 55 different states, and quite honestly, some of 
those states have never been in turmoil, and some of those 
states have always been democratic, and some of those states 
are doing quite well.
    Mr. Gast. Congresswoman, Mali, over the last 10 years, has 
had significant growth; 5 percent, on average, year-on-year 
growth. And that has helped to lift a sizable portion of the 
population out of poverty, which is significant. Unfortunately, 
a majority of the population has benefitted from that, but a 
minority has not. And the minority that has not is in the 
North. As Ambassador Carson mentioned, the size of the North is 
approximately the size of France and the population of the 
North, before the displacement, was roughly 1.5 million 
persons.
    So access is extremely difficult; opportunities for 
employment, very few; opportunities for growth, given the harsh 
terrain of the Sahara Desert, also very, very few; and that has 
helped exacerbate the crisis in the North. Now, the problem is 
that this crisis also threatens to undermine the progress that 
has been made in the South with agriculture and with growth. 
With the displacements and the inability of the government to 
continue financing services that it would normally finance the 
economy is going to contract.
    As I mentioned in my opening statement, government revenues 
are down considerably from last year. So it, at a time when it 
is not being financed by external actors, cannot finance its 
own needs. So we are very concerned about that. You raised the 
issue of women and children, and unfortunately, women and 
children do suffer far more greatly than the men in times of 
crisis. And Mali has made significant gains over the last 10 
years. It has been able to cut child mortality rates and 
maternal mortality rates by half, but still, it ranks near the 
bottom. Only Somalia has higher maternal and child mortality 
rates. So we are concerned about that.
    It is very, very difficult in this environment for us to 
have access in the North. There are only a few actors, 
international NGOs, that are operating in the North, and each 
has to negotiate access with each community and rebel group 
operating in the North.
    Mr. Smith. Thank you very much, both of you, for your 
testimony and we do have----
    Ms. Jackson Lee. Thank you.
    Mr. Smith [continuing]. Several members of the committee, a 
number of questions we will submit for the record, and again, I 
thank you.
    I would like to now invite our second panel to the witness 
table, beginning with Nii Akuetteh. Mr. Akuetteh is an 
independent policy researcher and analyst who specializes in 
U.S. foreign policy, African development, and international 
relations. He's often published in American journals on Africa 
and appears on Aljazeera, Voice of America, the BBC, and other 
television and radio outlets analyzing African issues.
    He has done a stint as a Georgetown professor, a journal 
editor, and leader of advocacy organizations working on three 
continents. He created and led two organizations focusing on 
democracy and the conflict in Mali.
    We will then hear from Mr. Rudolph Atallah, who is a 21-
year veteran of the United States Air Force who retired as a 
lieutenant colonel. He served in the Office of the Secretary of 
Defense as Africa Counter-Terrorism Director, where his 
responsibilities, included advising the Secretary of Defense 
and other senior officials on counterterrorism policy and 
strategy, and serving as an advisor to the State Department and 
numerous Embassies across Africa.
    He has been a featured guest on programs, NPR, C-SPAN, and 
National Geographic Channel, where he discussed African 
counter-piracy and successful resolution of the 2009 Maersk 
Alabama incident.
    We will then hear from Mr. Dave Peterson, who is the senior 
director of the Africa Program for the National Endowment for 
Democracy. Since 1988, he has been responsible for NED's 
program to identify and assist hundreds of African non-
governmental organizations and activists working for democracy, 
human rights, press freedom, justice, and peace. He was the 
former executive director of the Project South Africa of the A. 
Phillip Randolph Educational Fund, and a freelance journalist 
in Africa as well as in Turkey.
    He has visited more the 40 African countries since '84 and 
has published numerous articles on African politics. Mr. 
Akuetteh, if you could begin.

   STATEMENT OF MR. NII AKUETTEH, INDEPENDENT AFRICA ANALYST 
  (FORMER GEORGETOWN UNIVERSITY PROFESSOR OF AFRICAN AFFAIRS)

    Mr. Akuetteh. Thank you very much, Mr. Chairman. Ranking 
Member Bass, Congresswoman Jackson Lee, I very much appreciate 
this opportunity to appear before you and share my opinion, but 
I am particularly grateful that you have taken the time to 
consider an issue in Africa that I think is extremely important 
and has a lot of dangerous potential and requires attention and 
assistance. My full written statement I would like to request 
to be part of the record.
    Mr. Smith. Without objection, so ordered, as well as all of 
your full statements.
    Mr. Akuetteh. So I just want to summarize the main points. 
My recommendation, looking at the Mali situation, is that the 
U.S. should respond with two initiatives. One is that I believe 
the situation is very urgent and dangerous, and the regional 
body ECOWAS has stepped up. As I look at the situation and also 
watch the news, I am reminded of the fires going on in Colorado 
and the image that jumps to my mind is that the Pentagon, it 
seems to me, will rush to the aid of the firefighters because 
the Air Force Training Academy is threatened.
    I do believe that this is an analogy for what is going on 
in Mali. A lot of Malians are affected, a lot of West Africans 
are affected, but I also think that important American 
interests can be harmed if the situation deteriorates. And 
therefore, it seems to me it is both ethical and very good for 
the United States to help ECOWAS deal with the situation.
    My second recommendation, and I listened carefully to the 
presentation by the preceding panel, the Federal officials, it 
seems to me that the elephant in the room is the potential for 
terrorism in Africa, and United States' response, and U.S. 
policy since 9/11, and the creation of AFRICOM. Now, I think 
AFRICOM had a strong presence and programs with the democratic 
government of Mali, and therefore, I think the U.S. Government 
should take this as an opportunity to review the policies 
followed since 9/11 to see areas that require improvement so 
that Africa policy and U.S.-Africa relations can be stronger.
    Good policy review, in my view, will require a 
comprehensive exercise, but I do think there are things that 
one can see even now. And among those is that, democracy should 
play a much bigger role in U.S. policy, even when it comes to 
dealing with issues of terrorism. The 55 African countries are 
extremely complex, so of course, you always have grievances, 
but it seems to me that democracy is the way to go rather than 
strengthening Africa militaries. So I think U.S. policy should 
emphasize democracy and de-emphasize, particularly, military 
assistance except in emergency situations, and of course, the 
thing to be avoided is that no U.S. troops required anywhere on 
the continent except in very rare cases.
    Also, I think the training that the United States gives 
African soldiers, militaries, need to start with training that 
asks them to respect the democratic institutions of their 
countries. I do think that too many Africa militaries take for 
themselves the right to determine who should govern their 
countries or not. The continent has been moving away from that 
and it will be good if U.S. military assistance and training 
pushes soldiers to understand that they must respect the 
democratic choices of their populations, that it is not their 
job to select who runs their countries.
    And I think that the United States' AFRICOM, there is a 
question of where its headquarters are to be located. I think 
that it would be a good idea if the headquarters are brought to 
the United States because there is worry in many African 
countries as to whether there will be large bases and military 
headquarters. And therefore, I think to deal with those 
worries, it would be good if, like some other U.S. commands, 
they are based in the United States. I think that will go a 
long way to ease worries about the U.S. military presence, 
because the relationship between the two areas, the U.S. and 
Africa, will thrive on civilian bases.
    Mr. Chairman, I want to end here and I will look forward to 
expanding on any of my points in the question period. I thank 
you very much, again, for the opportunity.
    [The prepared statement of Mr. Akuetteh follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you very much Mr. Akuetteh. I would like 
to ask Mr. Atallah if he would proceed.

  STATEMENT OF MR. RUDOLPH ATALLAH, SENIOR FELLOW, MICHAEL S. 
                ANSARI CENTER, ATLANTIC COUNCIL

    Mr. Atallah. Mr. Chairman, Ranking Member Bass, 
distinguished members of the subcommittee, thank you for this 
opportunity to come before you today and speak about this 
important topic. And thank you for adding my analysis and 
summary into the records. While I come today in a personal 
capacity, the analysis and views, which are my own, were shaped 
by my 21 years of military service. Between 2001 and 2003, I 
spent extensive time with the Tuaregs in the North, 
specifically in Gao, Kidal, and Tessalit. As a native Arabic 
speaker I got the chance to sit down and speak with many of the 
senior Tuareg leaders and local imams, so my ideas are shaped 
by that time. Also, more recently, with my private company, 
White Mountain Research, I have spent extensive time in the 
region keeping track of the current situation.
    To fully understand what is going on, I would like to just 
dive into a brief history. The January 17, 2012, Tuareg 
uprising is the fourth since Mali's independence in 1960 and a 
continuation of, basically, a half a century of ongoing 
differences between the Tuaregs and the Government of Mali. The 
differences are between a Tuareg, whose identity is in their 
Tamasheq language, and Bamako in the South. To understand how 
we arrived at the current crisis in Mali, it is important to 
briefly mention the third Tuareg rebellion, which was launched 
in 2006 by a defiant Tuareg leader named Ibrahim Ag Bahanga.
    The rebellion lasted for 3 years while Algeria attempted to 
broker peace between the government and the rebels. In 2009, 
Mali dispatched troops to the North to stop Bahanga and he was 
exiled to Libya. He returned in January 2011. During his time 
in Libya, Bahanga made contact with Tuareg officers and 
tribesmen from Ghadafi's military. When Ghadafi's regime began 
to fall, Bahanga convinced his tribesmen to abandon their 
military posts and go after Ghadafi's weapons. Tuareg defectors 
raided the large stockpiles of Ghadafi's arms and ammunitions, 
loaded trucks, and jumped in convoys, and headed South.
    Bahanga's ambitions to fuel another uprising in Northern 
Mali took root among a well-trained and a well-equipped Tuareg 
force. Bahanga was killed in a mysterious car accident in the 
summer of 2011. And in October of that same year, in the oasis 
town of Zakak, near the border of Algeria on the Malian side, 
Tuareg youth, intellectuals, Malian Army deserters, Libyan-
trained Tuareg soldiers formed the Mouvement National pour la 
Liberation de l'Azawad, or MNLA as we like to call it today; 
Azawad being the land, or the northern part of Mali.
    During this meeting, another Tuareg named Iyad Ag Ghaly, 
who was leader in the first rebellion in the 1990s, and had 
also joined Bahanga in the third rebellion in 2006, tried to 
join the MNLA but they rejected him. And they rejected him for 
many reasons. One, he plays both sides of the fence, and he has 
done that before. He is one of AQIM has deep relationships with 
them, and he has got very radical beliefs. So he went on to 
form his own organization, of Salafist Islamic group called 
Ansar al-Dine, or Defenders of the Faith.
    MNLA's primary objective for liberating Azawad, as they 
like to call it, was the creation of a secular democratic state 
that represents all ethnic groups in Northern Mali, not just 
the Tuaregs. It was fighting, basically, for culture, pride, 
and self-determination. Despite its swift victory, MNLA's 
agenda was quickly undermined by the threat of militant Islamic 
dominance. At the helm of the threat was the Ansar al-Dine of 
Ag Ghaly. And so with Ansar al-Dine putting a Tuareg face on 
AQIM, if that didn't exist, there would be more resistance to 
the Salafist presence and a broader support for MNLA.
    In recent weeks, Tuaregs tolerant of Ansar al-Dine began to 
learn the truth about the organization. Reports conveyed on 26 
June from Tuareg families living in Timbuktu said that local 
boys as young as 11 and 12 years old are being deceived and 
lured into Salafist training camps over promises to receive 
food and money in return for doing odd jobs. One father went to 
one of these camps to bring his son back and was told by the 
leader of Ansar al-Dine running the camp that he can have his 
boy back after he had fulfilled his duties to Allah.
    The harsh reality is, people without money rely on handouts 
from Ansar al-Dine, which has full support of AQIM, is well-
funded, and well-equipped. In return, families have to send 
their sons to newly militarized madrasas where they are taught 
to fire AK-47s and are indoctrinated into harsh interpretation 
of Islam. Two days ago, fighters from an AQIM splinter group 
clashed with MNLA in the city of Gao. Reports indicate that 20 
people were killed, and a day after the clash, leaders of the 
various Islamist groups got together, took over Gao, and had 
discussions that are still unknown. If the information is 
accurate, we are getting down to a showdown between the MNLA 
and the Islamists, which is unfolding as we speak.
    Although the international community would never entertain 
the idea of an Azawadian independence, efforts need to be made 
to support MNLA and Tuaregs who oppose the extremist groups 
from operating in the Sahel. Tuaregs are masters of their 
environment. They can play a key role in stabilizing the region 
by driving out these groups. And they have the will to do so, 
but they can't do it on their own. Unfortunately, the present 
situation is getting bleak. Mali is becoming a magnet for 
foreign fighters who are flocking in to train recruits to use 
sophisticated weapons pilfered and taken from Ghadafi's 
arsenal.
    So what is the endgame for the extremist groups? AQIM 
leadership wants to take advantage of the shifting political 
landscape in North Africa. To accomplish this goal, it has to 
rely on its regional affiliate AQIM. However, the setbacks AQIM 
has suffered over the last few years are significant. Its 
ability to recruit is, basically, down to zero. To survive and 
remain effective, AQIM needs money and soldiers. The Sahel has 
become an ideal ground for both and the Tuareg function as 
collateral.
    Until now, Mali's military has been ineffective to drive 
out AQIM from the northern part of the country. The 
international community and Mali's neighbors should not support 
the current Bamako regime to conduct military intervention on 
its own. This will be counterproductive and could force locals 
to support Ansar al-Dine and AQIM. The best approach to counter 
the crisis is to create a buffer zone around the areas where 
the Salafists operate. The buffer zone should restrict movement 
by air and ground of illegal goods entering and leaving the 
area.
    On a larger scale, a systematic regional approach aimed at 
targeting illegal drug trafficking, tobacco, and weapons should 
be addressed to curb terrorists' access to money, and diminish 
their cashflow to recruit, and buy more weapons. Further, an 
effective information campaign is indispensable to discredit 
AQIM and Ansar al-Dine and reinforce local distrust of their 
motives. However, direct intervention by Western states will 
reinforce the extremists' raison d'Etat and will exacerbate the 
crisis. The solution must be brokered by regional actors and 
guided by regional experts.
    There also must be support for border control and 
counterterrorism programs for the Sahelian states, where 
intelligence collection and info sharing requires significant 
improvement. Furthermore, these states do not have the ability 
to respond to security threats in remote areas distant from 
their capitals. This is the reason why Mali has been 
ineffective at maintaining control of the North. Although 
AQIM's southern zone battalion is no more than 300 strong, the 
vast operational area makes it very difficult to target these 
individuals absent of regional state collaboration.
    Thank you for your attention. I look forward to your 
questions.
    [The prepared statement of Mr. Atallah follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you, Mr. Atallah, for your very extensive 
recommendations and the wisdom, I think, you bring to this 
committee given, especially, your contacts in the North. Thank 
you so much for that. I would now like to ask, Mr. Peterson, if 
you would proceed.

   STATEMENT OF MR. DAVE PETERSON, SENIOR DIRECTOR, AFRICA, 
                NATIONAL ENDOWMENT FOR DEMOCRACY

    Mr. Peterson. Thank you. Chairman Smith, Ranking Member 
Bass, and members of the subcommittee. It is a great privilege 
to testify before you this morning regarding the recent crisis 
in Mali. In the 5 minutes I have been given this morning I 
would like to make two essential points. The first emphasizes 
the political importance of Mali. The second describes the 
Endowment's efforts to contribute to the restoration of 
democracy. I congratulate the committee for demonstrating its 
concern about Mali by holding this hearing. Although I am not 
able to speak to the strategic threat of al-Qaeda in the 
Maghreb, and the Tuareg rebels to American interests, I would 
like to emphasize the grave setback the military coup and 
division of Mali has made to the democratic movement in West 
Africa, and indeed, for the entire continent.
    Mali was among the very first African countries to lead the 
second wave of independence in 1991 when a popular uprising and 
the military's refusal to fire on protestors led to the 
downfall of the longtime dictator Moussa Traore, followed by a 
sovereign national conference and free and fair elections in 
1992. Although one of the poorest countries in the world, Mali 
remained at the forefront of democratic reforms in the region, 
pioneering a vibrant independent broadcast media and civil 
society, adopting democratic innovations such as the public 
democratic questioning space for government officials, 
implementing one of the first decentralization reforms in 
Africa, and leading ECOWAS and the AU in promoting democratic 
government throughout the continent.
    In 2007, aided by modest NED support, Mali hosted the world 
conference of the Community of Democracies. Mali seemed to 
disprove the contention that only rich countries can be free 
and its relative stability for two decades served as a 
touchstone for the slow, but steady democratic progress we have 
seen throughout West Africa. This is not to say that Malian 
democracy was perfect. Participation in elections has rarely 
been above 30 percent. Corruption has grown steadily as a 
problem, undermining faith in democratic government. Terrorist 
activity and discontent among the Tuareg have repeatedly 
plagued Mali. Yet, those of us working to support democratic 
development in Africa were caught off-guard by the sudden 
reversal of democracy's fortunes in Mali.
    The coup was a huge blow to democracy, although the 
resolute opposition of ECOWAS and the international community 
has been encouraging. Unfortunately, the coup leaders seem to 
be controlling the agenda and the capacity of ECOWAS to 
intervene in a forceful way seems limited. Even worse, is the 
secession of the North. Not only has the sovereignty of Mali 
been abandoned, but the new rulers don't even pretend to 
respect democracy. According to Sanda Ould Boubama, Ansar al-
Dine's spokesman in Timbuktu, I quote, ``Sharia has to be 
applied whether the people like it or not. We will enforce it. 
We are not asking anybody's opinion. We are not democrats. We 
are servants of Allah who demand Sharia.''
    In recent years, NED has supported programs by the 
International Republican Institute to strengthen Mali's 
decentralization and by the National Democratic Institute to 
support the Malian legislature. USAID funding has also been 
provided to NDI to assist the electoral process, but due to the 
coup, that is currently suspended. Nevertheless, based on our 
assessment that Mali was a reasonably stable and functioning 
democracy prior to the coup, until recently, that country has 
not been a high priority, given the vast needs across the 
region. Obviously, this is no longer the case.
    And with the blessing of the NED's Board of Directors, it 
will be necessary to shift funding from programs budgeted for 
other parts of West Africa to address the new situation in 
Mali. Mr. Chairman, the Endowment does not design projects here 
in Washington and attempt to implement them on the ground, 
rather, we provide funding for proposals that are not formally 
solicited that we receive from indigenous NGOs. We have already 
received proposals and I expect staff to travel to Mali in the 
coming months to assess the situation and meet with potential 
partners.
    Indeed, the outlines of our strategy for Mali are already 
beginning to take shape. First, we will support the restoration 
of democratic legitimacy in the South, and second, we will seek 
ways to help Malians engage with the North to promote 
reconciliation and ultimately, reunification and democracy. At 
this stage it is difficult to estimate our budget for Mali, but 
I would hope it would amount to at least several hundred 
thousand dollars by next year.
    The transitional government in Mali has agreed to hold 
elections within a year and my colleagues at NDI who had been 
working on the elections before the coup suggests that it would 
be better for these elections to happen within the next 6 
months rather than at the end of that time frame. Past 
elections have been troubled by boycotts, fraud, and poor 
management. And NED will seek to support domestic election 
observation efforts and other transparency initiatives. 
Disaffection with politicians and corruption has contributed to 
low voter turnout and NED will also support projects that 
provide voter education, advocate accountability, and promote 
popular participation.
    Malians were shocked and confused by the sudden 
disappearance of their democracy and NED will seek to support 
efforts to rebuild their understanding and commitment to 
democratic values. Public opinion polling and focus groups can 
probe what happened to Malian citizens' commitment to 
democracy, and could serve as a basis for designing such civic 
education programs. Mali has had a vibrant women's movement. 
NED will particularly target programs mobilizing women as 
voters and political leaders. Mali has had nearly 200 radio 
stations, eight daily newspapers, and 40 periodicals, but 
recent attacks against the press are troubling. NED will seek 
to address this problem.
    Human rights abuses have also reportedly escalated and NED 
will consider support to Mali's well-established human rights 
movement for human rights monitoring, education, and advocacy. 
Finally, given the apparent problems with the Malian military, 
notwithstanding the assistance it has received from the U.S. 
military, NED will consider innovative proposals from civil 
society organizations assisting with security sector reform.
    In the northern part of the country, as has been noted, the 
new rulers have little regard for democracy. Yet the Tuareg, 
who have led the rebellion, represent an ethnic minority in the 
North, and even among the Tuareg, the separatist's agenda has a 
questionable level of support, and the radical Islamic agenda 
of Ansar al-Dine and AQIM, even less. Few of the rebels seem to 
have experience with governance and are more comfortable with 
their nomadic traditions than the settled culture of towns and 
villages. Although the presence of civil society and 
independent media is thinner in the North than in the South, 
NED will seek to support those organizations and radio stations 
that do exist in the North on a range of initiatives.
    Our experience in Somalia, for example, has found 
considerable traction supporting radio broadcasts promoting 
democratic values. Projects strengthening the capacity of 
traditional leaders and other community authorities, vis-a-vis 
extremists, have also had some success. Hundreds of thousands 
of Malians are fleeing the North due to drought, locusts, and 
the repression and bizarre edicts of the rebels. Projects 
helping these internally displaced persons can protect their 
rights in the vulnerable conditions in which they now find 
themselves, enable them to participate in democratic processes 
such as elections, as well as lay the foundations for their 
eventual return home.
    Mr. Chairman, the Malian crisis may be more effectively 
resolved through the battle for hearts and minds than through 
military confrontation. NED is not so presumptuous as to 
pretend that our modest resources alone can fix what ails the 
country. We trust that other international donors will also 
become more involved. The crisis in Mali is unlikely to be 
resolved easily, it may take many years, but as I hope I have 
convinced you this morning, much can be done to address the 
many challenges faced by its people.
    There is already much in recent Malian history and 
institutions that can provide the basis for democratic renewal. 
Thank you and I would be pleased to answer your questions.
    [The prepared statement of Mr. Peterson follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Mr. Peterson, thank you very much for your 
testimony and thank you for the great work that NED does 
throughout Africa and around the world. Let me just ask you, we 
have about 14 minutes left and then there is 1 hour and 20 
minutes worth of votes, so I thought we would propose 
questions, and as best you can, answer rapid fire, from the 
three of us. Very quickly, to Mr. Atallah, you mentioned that 
Tuaregs have seen flirtation with militant Islam as temporary, 
when does this friendship, this alliance, break apart? Does it 
become armed?
    You heard the earlier question that I had asked about the 
ECOWAS peacekeeping, is 3000 enough? How quickly do they need 
to be deployed to be efficacious in mitigating all this 
horrible bloodshed and danger? Rules of engagement, could you 
want to touch on that one as well? The issue of the Tuaregs who 
have felt disenfranchised and discriminated for so long, have 
we blown it? Has the West, the United States and others, not 
taken their concerns adequately into consideration or were we 
doing much on that? And finally, I have lots of questions, but 
we are running out of time. Ms. Bass, if you could offer your 
questions.
    Ms. Bass. Sure. My questions center on AFRICOM and really 
are directed to the first two speakers, because I kind of 
heard, maybe something different, and I am not really sure, 
because you were referring to difficulties within AFRICOM. You 
mentioned that AFRICOM, maybe, should be centered here as 
opposed to Stuttgart. You talked about, you know, the role of 
the U.S. in terms of beefing up militaries, and maybe that 
isn't the best way to go. Then on the other hand, you described 
the serious security concerns. And so I am just wondering, kind 
of, from both of you, if you could address AFRICOM, where you 
feel it could be better; what could it do differently?
    Mr. Atallah. Mr. Chairman, Congressman Bass, thank you for 
your questions. I will try to address them as quickly as 
possible just from my experience. First of all, let me start 
off with the ECOWAS question. I completely agree with 
Ambassador Carson. We need to take care of the South first 
before we look at the--I mean, the North is obviously an 
incredibly important question, but the South needs to get its 
act together in order to effectively, you know, answer the 
problems in the North.
    Speaking specifically of the Tuareg, they are a secular 
people. I have spent enough time with them to know. As an 
example, back in 2002, there were militant Islamists coming in 
from Pakistan that were trying to recruit from within the ranks 
of the Tuaregs, primarily focused on the youth. The Tuareg 
leaders that were with me said, ``This will never happen in our 
culture. We are a tolerant people. We accept everybody. If they 
are going to take the backbone of our people, our youth, then 
we are going to fight them.''
    The case still stands today, although you have an anomaly 
right now, a guy named Ag Ghaly, who is on the Salafist side of 
the house, he is the only one projecting an extremist face 
within the Tuareg. Not a lot of Tuaregs support that. As a 
matter of fact, recent days are showing a major rift between 
them. So have we blown it? I think we could do a lot more for 
them. Typical grievances that Ambassador Carson covered are 
spot on. If you talk to Tuareg in the North, they say the fact 
that paved roads end up Mopti, in the center part of the 
country, embodies how we are left alone and nobody really 
cares. They rely on tourism. That is part of their culture.
    And so now it has all been hijacked by the extremists and, 
you know, they have never had anything. They don't have, you 
know, good health care, no infrastructure, all the things that 
Ambassador Carson addressed. So in terms of how do we address 
the North and what can AFRICOM do, I think we need to step up 
the regional involvement. Better intel sharing. It has been 
very weak; very, very weak. States don't trust states. Algeria 
doesn't trust its neighbors and vice versa. We have to crack 
the code on that because, actionable intelligence to go after 
these individuals is key.
    AQIM and al-Qaeda want to take advantage of what is going 
on politically in North Africa and the region. I don't want to 
eat up all the time, but one more point is, if you look at the 
letters that came out of the Bin Laden compound, 17 of them 
were already translated by CTC and West Point. Bin Laden was 
very focused in working with AQIM as to hijack the Arab Spring 
and start making missionaries. Their sole goal, essentially, is 
to regroup, reinforce, make enough money, bring enough 
recruits, and come back after the United States and its allies. 
Something we have to pay attention to. AFRICOM can play a big 
role.
    We need to tighten that noose around where the radicals are 
working and take away, primarily, their cashflow, which comes 
through drugs, extortions, kidnappings, and whatnot. And so, 
effectively, not only intelligence, but having all state actors 
work together, and I will leave it at that.
    Mr. Akuetteh. Thank you very much. To begin with AFRICOM, 
it is true that the problems in Mali just deteriorated very 
fast since January, but some of us who have been admiring and 
looking at Mali were concerned that before this time, for the 
past few years, a lot of U.S. relations and activities with the 
Amadou Toumani Toure government was largely military assistance 
and military exercises. Nobody's prescient, but if you look at 
that government's record, and as has been said, the problem 
with the Tuaregs has been there for a long time. There were 
eruptions even before independence.
    So some of us thought that U.S. relations with Mali should 
have emphasized democracy, should have emphasized ways to deal 
with the Tuareg problem. I would call that democracy 
reconciliation and development. Now, I am not unmindful of the 
terrorism problems in Africa. I think terrorists have caused 
havoc in Africa from the Embassy bombings, Boko Haram, and 
others, but the idea is that, given the complexity of African 
countries, perhaps emphasizing democracy, and development, and 
reconciliation would quiet down problems in the area and then 
you isolate extremists who have to be dealt with.
    So frankly, some of us were concerned that, for the past 
few years, the Amadou Toumani Toure government was incentivized 
to ignore some of the internal problems and focus on military 
engagement against the AQIM and the other groups in the North. 
That has been the concern.
    Mr. Smith. Mr. Akuetteh, in your testimony you suggested 
that the U.S. military training is not providing respect for 
democratic institutions, could you provide the committee the 
information on that and does that also apply to human rights 
training and anti-human trafficking training? Is the U.S. 
military training sufficiently inculcating that attitude that 
human rights matter; respect for democratic institutions? I 
would love to get the evidence of that if you could provide 
that for us.
    Mr. Akuetteh. I would be glad to provide what I can come up 
with. My concern has been that African soldiers, number one, if 
I had anything to do with who gets trained, we would prioritize 
soldiers in democracies, rather than soldiers who are serving 
unelected strongmen, because that causes a problem. That is my 
first concern. And then, of course, what exactly are they being 
trained about? They should be trained to respect their 
democratically-elected leaders.
    If I might make a quick comment on how quickly the problem 
in Bamako gets resolved versus the problem in the North. I did 
hear and listen carefully to what Ambassador Carson said, and 
what Mr. Atallah has said, but part of my worry is the security 
concern that, by the time the problem in the South, if we take 
too much time, the problem in the North would have become much 
bigger. And I do think, therefore, that ECOWAS needs the 
support to get up to speed to make sure that things don't 
deteriorate quickly in the North before the South gets its act 
together.
    Mr. Smith. Okay. We do have, again, as I said to our 
outstanding panel, a number of written questions we would like 
to convey to you and if you could get back to us as quickly as 
possible.
    And thank you for your extraordinary insights. It provides 
this committee a very, very useful way forward. Thank you so 
very much. I am sorry that we do have to break. There is 1 hour 
and 20 minutes worth of votes on the floor. The hearing is 
adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
   chairman, Subcommittee on Africa, Global Health, and Human Rights




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
